Before the Committee on Transportation and Infrastructure
Subcommittee on Highways, Transit, and Pipelines
U.S. House of Representatives



For Release on Delivery
Expected at
2:00 p.m. EDT
                          Background Checks For
Wednesday
May 11, 2005
                          Holders of Commercial
CC-2005-038
                          Drivers Licenses With
                          Hazardous Materials
                          Endorsements


                          Statement of
                          Todd J. Zinser
                          Deputy Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today on the Commercial Drivers License
(CDL) program and the new rules governing the hazardous materials endorsement
background records check. As we reported in our November 2004 Management
Challenge report,1 a critical post-September 11th issue is the interdependency
among the Department of Transportation (DOT) and other Federal agencies to
carry out programs that have both safety and security elements. For the DOT, this
intersection of safety and security is most pronounced in the area of hazardous
materials oversight and enforcement.

There are 702,277 active motor carriers under the jurisdiction of the Federal Motor
Carrier Safety Administration (FMCSA), with more than 11 million CDL holders
on record and an estimated 2.7 million CDL holders with a hazardous materials
endorsement. More than 3 billion tons of regulated hazardous materials are
transported nationally in over 292 million shipments each year. Each day there are
more than 800,000 hazardous materials shipments, and while more than 95 percent
are being transported by highway, the shipments by rail, air, pipelines and ships,
as well as the safety standards for containers and packaging, are also part of the
Department’s responsibilities.       The Department has a strong record and
commitment to safety. The large truck fatality rate decreased from 2.65 fatalities
per million truck miles traveled in FY 1999 to 2.31 in FY 2003. However,
significant progress is needed to reach the Department’s goal of reducing these
numbers to 1.65 fatalities (per million truck miles traveled) by 2008.

As we have been reporting since September 11th, the imperative for the
Department and the Congress is to effectively integrate new security measures into
the Department’s existing safety regimen and to do so in a way that promotes
stronger security without degrading transportation safety and efficiency. The
requirement for a background records check CDL holders with hazardous
materials endorsement is one such effort. Since the Transportation Security
Administration (TSA) was transferred to the Department of Homeland Security in
March 2003, the background records check for these CDLs holders is now a
Department of Homeland Security responsibility.            However, processing
background records checks is not new to TSA.

When TSA was part of the Department of Transportation, it established a similar
program for airport workers and since 2002, over 1.6 million employees working
at the Nation’s 400-plus commercial airports have had a criminal history records
check completed.


1
    OIG Report Number PT-2005-008, “Top Management Challenges, Department of Transportation,”
    November 15, 2004.
While initially a concern, the issue of timeliness turned out to be a non-factor. In
these cases, the American Association of Airport Executives2 served as a
clearinghouse to facilitate the processing of fingerprints for the airports and
airlines. While we do not know the details of TSA’s system for processing the
background records checks for holders of CDLs, based on our observations of the
experience with airports and airlines, strong cooperation and coordination with all
stakeholders is critical to make the process efficient and effective.

The CDL program and the requirement for hazardous material endorsements
represented a significant step forward for transportation safety. Under the CDL
program, states are required to check drivers’ records to ensure that they have not
been disqualified from operating a commercial vehicle and that their
non-commercial driving privileges have not been revoked, suspended or canceled.
The purpose of the hazardous materials endorsement is to improve the safety of
transporting hazardous materials on the Nation’s highways by requiring drivers to
demonstrate their knowledge of hazardous materials regulations, hazardous
materials handling, and operation of emergency equipment and emergency
response procedures in the event of an accident.

In 1999, at the request of this Subcommittee, we reviewed the CDL program and
made recommendations to strengthen it.3 We also audited the program in 2002,
and made recommendations to counter vulnerabilities to fraud.4 FMCSA has
concurred with our recommendations and is continuing its efforts to strengthen the
program.

Curbing CDL fraud is important to highway safety since it helps ensure that only
drivers with the requisite skills obtain CDLs. Over the past 5 years we have
investigated and prosecuted CDL fraud schemes in 23 states and found over 8,000
CDLs that were issued to drivers through corrupt state or state-approved testing
processes. We have found too many cases where, in exchange for a bribe, an
examiner will pass applicants without a test or will supply test answers to
applicants. For example, a driver who caused a fatal crash in 2003, which killed a
family of five in Pennsylvania, had been tested by a third-party examiner who was
convicted of fraudulently certifying CDL test results.

The new background records check for holders of CDLs with hazardous materials
endorsements, if properly implemented, adds an additional layer of both safety and

2
    The American Association of Airport Executives is the largest professional organization for airport
    executives in the world, representing thousands of airport management personnel at public-use airports
    nationwide.
3
    OIG Report Number MH-2000-106, “Disqualifying Commercial Drivers,” June 30, 2000.
4
    OIG Report Number MH-2002-093, “Improving the Testing and Licensing of Commercial Drivers,”
    May 8, 2002.



                                                     2
security because the background records checks (through identity, immigration
and fingerprint-based criminal history records checks) ensure we know that the
drivers (1) are who they say they are, (2) are legally present in the United States,
and (3) can be trusted with the public’s safety and security when operating a
commercial vehicle transporting hazardous materials.

Given that this critical safety program now intersects with an added security
requirement, we encourage the Subcommittee and the Department to take action to
ensure that the proper balance between safety and security is reached and that the
program continues to receive the Subcommittee’s attention.

Today, I would like to discuss:

• The CDL Program as a significant safety initiative and the continued efforts to
  strengthen its effectiveness.

• The background records checks for hazardous materials endorsements and how
  they serve both safety and security purposes.

• Areas to watch as the background records check process gets underway.

The CDL Program as a Significant Safety Initiative and the
Continued Efforts To Strengthen Its Effectiveness
The CDL program is a key element of the Transportation Department’s efforts to
ensure the safety of our highways.

Before Congress established the CDL program through the Commercial Motor
Vehicle Safety Act of 1986, drivers could obtain a license to operate a large truck
or bus in more than a third of the states without obtaining a special license.
Moreover, commercial drivers often obtained licenses from several states, making
it easy to hide bad driving records.

As a result of the reform measures in the 1986 Act, commercial drivers were
prohibited from obtaining more than one license and were required to demonstrate
a minimum level of knowledge and driving skills. States were also required to
disqualify drivers convicted of serious traffic violations, such as driving a




                                         3
commercial motor vehicle while intoxicated.     See Attachment 1 for a list of
disqualifying traffic violations.

According to FMCSA, approximately 880,000 drivers were disqualified at least
once from 1992 through 1996 as the program was implemented. The 1986 Act
also required a nationwide information system for exchanging data on commercial
drivers, the Commercial Driver’s License Information System. This system now
has more than 11 million CDL holders on record and will become a vital resource
in maintaining additional information about CDL holders that transport hazardous
materials over the Nation’s highways.

Work by our office, initiated at the request of this Subcommittee, has identified
successes in the CDL program, as well as areas for improving the program’s
operations. We found that the program achieved the goal of limiting commercial
drivers to one CDL, but improvements in Federal oversight were needed to make
sure that unsafe commercial drivers were disqualified. We also reported in 2002
that existing Federal standards and state controls were not sufficient to defend
against individuals who seek to fraudulently obtain CDLs.

Well before September 11th, we were investigating schemes whereby corrupt state
Department of Motor Vehicle officials or third-party testers would take bribes
from CDL applicants to circumvent the requirements for obtaining a CDL. Since
2000, we have investigated and prosecuted CDL fraud schemes in 23 states and
found over 8,000 CDLs that were issued to drivers through corrupt examiners,
mostly third-party examiners working on behalf of the state. What we have
learned through our casework is that people are motivated to pay bribes to
circumvent CDL licensing requirements for a variety of reasons. These include
(a) the inability of foreign nationals to pass the written examination due to
language barriers, (b) unwillingness to wait the time necessary for completion of




                                        4
the CDL knowledge and skills test and issuance, (c) lack of required legal
residency or citizenship, and (d) insufficient training to pass the skills test.

After September 11th, several CDL fraud cases gained the attention of the Joint
Terrorist Task Forces (JTTF) because the cases involved foreign nationals.
Currently, for example, 2 of the 28 CDL fraud investigations that we are
conducting are in conjunction with members of a JTTF. In one case, the JTTF
initiated a proactive project to analyze CDL, immigration, and other database
records, with particular focus on hazardous materials endorsements. In the other
case, the initial allegations of CDL fraud concerned foreign nationals from Eastern
Europe with potential links to terrorism that needed to be checked out. To date,
our investigations have found that CDL fraud has essentially involved attempts to
circumvent the safety regulations through criminal acts but has not involved any
terrorist activity.

Our coordination with JTTFs is similar to the work our office did at airports in the
wake of September 11th, where we participated in law enforcement sweeps at more
than 30 airports nationwide. This effort resulted in the arrest or indictment of
more than 1,000 persons who had falsified records about their identities, criminal
histories, or immigration status. None of those prosecutions, however, involved
terrorism.

In our Report on Top Management Challenges for DOT in 2004, we recognized
that FMCSA had taken positive steps to improve its oversight of the CDL
program, but we continued to call for further improvements such as establishing a
requirement that all CDL applicants demonstrate citizenship or legal presence.

Background Records Checks for Hazardous Materials
Endorsements Serve Both Safety and Security Purposes
In our opinion, requiring a background records check for a hazardous materials
endorsement has an important deterrent value: individuals that pose both a safety

                                            5
and security threat are not likely to apply for, renew, or transfer a hazardous
materials endorsement, even though they may hold a CDL.                                If implemented
properly, the background records check should provide a higher degree of
confidence in the integrity of the CDL program by ensuring that the drivers (1) are
who they say they are, (2) are legally present in the United States, and (3) can be
trusted with the public’s safety and security when operating a commercial vehicle
transporting hazardous materials.

What the Rules Require. To implement portions of the law5 that mandated the
background records check for a hazardous materials endorsement, TSA and
FMCSA issued companion interim final rules in May 2003, as amended.

TSA’s interim final rule establishes a procedure to conduct a background records
check for holders of a CDL who apply for a hazardous materials endorsement.
Under TSA’s interim final rule, a holder of a CDL applying for a hazardous
materials endorsement will be disqualified from holding an endorsement if he or
she was:

      • convicted or found not guilty by reason of insanity within the past 7 years,
      • released from prison within the last 5 years, or
      • wanted or under indictment for crimes such as extortion, rape, arson,
          bribery, smuggling, or immigration violations.

Also, an applicant will be permanently disqualified from holding a hazardous
materials endorsement if he or she was ever convicted or found not guilty by



5
    Responding to September 11, 2001, Congress, on October 26, 2001, passed the “Uniting and
    Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
    Act of 2001” (Public Law 107-56 known as the USA Patriot Act), mandating that the Department of
    Transportation require routine background records checks, including reviews of criminal, immigration,
    and FBI records, for U.S. commercial drivers with hazardous materials endorsements. The Secretary
    delegated the authority to carry out this mandate to the Under Secretary of Transportation for Security,
    whose position was later transferred to TSA.


                                                      6
reason of insanity for crimes such as murder, terrorism, espionage and treason.
See Attachment 2 for the list of disqualifying crimes.

The rule was effective May 5, 2003 and background records checks were to begin
no later than November 3, 2003. TSA extended this deadline given the debate
among FMCSA, TSA, the states, and the trucking industry on how the new rules
would be implemented, how much it would cost to implement the new rules, and
who would pay what and when.

The new deadline for beginning background records checks for new CDL
hazardous materials endorsement applicants was January 31, 2005; and
May 31, 2005, for CDL holders who wish to renew their existing hazardous
materials endorsement when it expires and for CDL holders who wish to transfer
their existing hazardous materials endorsement to another state and have not
received a background records check. TSA estimates that for each year from 2004
to 2013, 407,000 fingerprint applications will be collected from new applicants,
renewals, and transfers.

FMCSA’s interim final rule incorporated TSA’s rule and prohibits states from
issuing, renewing, transferring, or upgrading a CDL with a hazardous materials
endorsement unless TSA has first conducted a security threat assessment of the
applicant and determined that the applicant does not pose a security risk
warranting denial of the hazardous materials endorsement. FMCSA shares with
TSA the responsibility for implementing the background records check
requirements by ensuring the states comply with TSA’s rule. FMCSA tied the
compliance date for the background records check to the rule issued by TSA and
added the background records check requirement to the list of 29 requirements that
states must meet to be in substantial compliance with CDL requirements.
According to FMCSA, it is conducting compliance reviews of the states every




                                         7
3 years, or anytime FMCSA receives a complaint that a state is not following
proper procedures.

These 29 requirements cover areas such as test standards, notification to other
states of traffic violations, and CDL records checks that must be performed on
CDL applicants. Under Federal rules, a state that does not meet one or more of the
requirements as determined by FMCSA is in non-compliance.           The possible
consequences of state non-compliance include the withholding of funds and the
decertification of that state’s CDL program.

How the Hazardous Material Endorsement Process Works. Prior to the new
hazardous materials endorsement requirement, the administrative process for
issuing a hazardous materials endorsement to a CDL holder was a state
responsibility and a process that focused strictly on safety. A holder of a CDL
would submit an endorsement application to the appropriate state licensing agency
and take a test on hazardous materials regulations, hazardous materials handling,
and operation of emergency equipment and emergency response procedures in the
event of an accident. If the applicant passed the test, the state licensing agency
would then issue the hazardous materials endorsement as part of the CDL. See
Attachment 3 for further details on this process.

Under TSA’s rule, the administrative process for issuing a hazardous materials
endorsement is the same as before but now the applicant must also be
fingerprinted and undergo a background records check.       If the results of the
background records check turns up no disqualifying crimes, and other TSA
intelligence checks come back clear, TSA approves the issuance of the
endorsement by the states. If the results of the background records check identify
a disqualifying crime or other disqualifying information, TSA denies the issuance
of the endorsement by the states. See Attachment 4 for further details on this
process.


                                         8
Areas To Watch as the Background Checks Requirements Are
Implemented
The implementation of background records checks on hazardous materials
endorsements is an important step in advancing safety and security, but it will take
strong cooperation from FMCSA, TSA, the states, industry groups, and other
stakeholders to effectively and efficiently implement the program. TSA estimates
that there are 2.7 million U.S. CDL holders authorized to carry hazardous
materials. However, criminal history record checks and intelligence checks of
these individuals have only recently begun and are far from completed.

Since TSA was transferred to the Department of Homeland Security in March
2003, the background records check for CDL holders is now a Department of
Homeland Security responsibility.       However, processing background records
checks is not new to TSA.      In aviation, TSA has statutory authority to conduct
background records checks on employees with unescorted access to secure areas
of the Nation’s commercial airports. When this mandate went into effect in 2000,
the aviation industry had concerns about, among other things, whether the
background records checks could be processed in a timely manner. While initially
a concern, the issue of timeliness turned out to be a non-factor. To illustrate, since
2002, over 1.6 million employees working at the Nation’s 400-plus commercial
airports had a criminal history records check and turnaround times for those
records checks were generally within 5 days.

In theses cases, the American Association of Airport Executives (AAAE) served
as a clearinghouse to facilitate the processing of fingerprints for the airports and
airlines.   AAAE established the Transportation Security Clearinghouse that,
among other things, expedited processing and resolution of fingerprint records
through required Federal channels, offered a centralized billing tied to record
submittals, and allowed the airports and airlines to submit fingerprints either
electronically or on cards.



                                          9
While we do not know the details of TSA’s system for processing the background
records checks for CDL holders, based on our observations of the experience with
airports and airlines, strong cooperation and coordination with all stakeholders is
critical to make the process efficient and effective.

Since TSA is now a component of the Department of Homeland Security, we do
not have authority to audit TSA’s programs, including its process for
implementing the background records checks. We can audit FMCSA’s oversight
efforts to ensure that states comply with the requirements for issuing, renewing,
transferring, or upgrading a CDL with a hazardous materials endorsement, but we
have not done so since the background records check requirement is just now
getting underway.

Based on our past experience with reviewing FMCSA’s oversight of state CDL
programs, we would suggest a few areas that the Subcommittee and FMCSA
should be aware of as they address state implementation of the background records
check requirement.

 • Any future oversight reviews of state implementation will need to address the
     operation of computer systems that are used to communicate information on
     hazardous materials endorsements among TSA, FMCSA, and the states. This
     would include ensuring that states comply with any requirements established
     for reporting hazardous materials endorsement information to the
     Commercial Driver’s License Information System. Tests of the computer
     systems are important because in the past we have found that systems did not
     always work properly.       For instance, states did not use convictions to
     disqualify drivers even when the convictions had been received by the states
     because the state computer systems did not properly identify records that
     merited disqualification. We recommended that FMCSA conduct tests of the
     state computer systems during CDL compliance reviews to catch this


                                          10
   problem and it agreed to hire a contractor to conduct these reviews. This
   example suggests that similar tests of hazardous materials endorsements may
   be needed to ensure that information is properly communicated and acted
   upon.

• Our past work also shows that it is useful to monitor data to identify
   problems. For example, we have found that FMCSA was not routinely
   monitoring trend data on the operation of states’ testing and licensing
   processes. Thus, one state had not sent data to the central site on 30,000 new
   commercial drivers over a 20-month period, but no one had noticed the
   situation.    Routine monitoring of reports on hazardous materials
   endorsements could alert FMCSA and TSA to problems and lead to faster
   corrective actions.

• While FMCSA’s previous experience with conducting reviews of state CDL
   programs will be a benefit in overseeing the implementation of the hazardous
   materials endorsement rules, in-depth oversight of states’ adherence to these
   rules may call for additional compliance review steps and added expertise.
   FMCSA responded to our prior recommendations by expanding its
   compliance reviews of state CDL programs to include contractor assistance.
   Such actions could be an option for future reviews that include examining
   compliance with hazardous materials endorsement requirements.

• Also, FMCSA’s experience with conducting regular on-site reviews of state
   CDL programs would enable it to promote uniformity in the implementation
   of the hazardous materials endorsement rules. We previously recommended
   clarifying Federal regulations on residency requirements to correct variations
   found across the states we visited. Similarly, FMCSA should look into
   whether the states capture and record the results of CDL holders’ background
   records checks in a consistent and uniform manner.


                                      11
The new hazardous materials endorsement process is another step in improving
the safe transportation of hazardous materials. FMCSA will need to work with the
states and TSA to ensure that the new hazardous materials endorsement process is
efficiently and effectively implemented.    Mr. Chairman, that concludes my
statement. I would be happy to answer any questions that you or other members
of the Subcommittee might have.




                                      12
                                                                                                       Attachment 1
                                                                                                        Page 1 of 2

                           Federal Disqualifying Violations
    States must take action to disqualify commercial drivers for specific time periods
    after a driver commits certain violations. Some violations require disqualification
    after a single conviction and other violations require more than a single conviction
    before a disqualification is imposed. The specific disqualifying violations are
    summarized in the tables that follow. New disqualifying violations addressed in
    the Motor Carrier Safety Improvement Act of 1999 are provided separately.
    Under the rule issued by FMCSA on July 31, 2002, states must adopt these new
    requirements no later than September 30, 2005.

            Violations Requiring Disqualification After a Single Conviction
                                       First Offense               Second Offense                Third Offense
           Violation
                                          Penalty                     Penalty                       Penalty
                                   1 year disqualification
 Driving a CMV under the
                                      if no hazardous            Life disqualification         Life disqualification
 influence of alcohol-–
                                     material involved,       (eligible for reinstatement        (not eligible for
 blood alcohol content of
                                    3 years if hazardous            after 10 years*)              reinstatement)
 0.04 percent
                                     material involved
                                   1 year disqualification
 Driving a CMV under the              if no hazardous            Life disqualification         Life disqualification
 influence of a controlled           material involved,       (eligible for reinstatement        (not eligible for
 substance                          3 years if hazardous            after 10 years*)              reinstatement)
                                     material involved
                                   1 year disqualification
                                      if no hazardous            Life disqualification         Life disqualification
 Leaving the scene of an
                                     material involved,       (eligible for reinstatement        (not eligible for
 accident involving a CMV
                                    3 years if hazardous            after 10 years*)              reinstatement)
                                     material involved
 Committing a felony while         1 year disqualification
 in a CMV but not                     if no hazardous            Life disqualification         Life disqualification
 involving manufacturing,            material involved,       (eligible for reinstatement        (not eligible for
 distributing, or dispensing        3 years if hazardous            after 10 years*               reinstatement)
 a controlled substance              material involved
 Committing a felony while
 in a CMV involving                 Life disqualification
 manufacturing,                       (not eligible for              Not applicable               Not applicable
 distributing, or dispensing           reinstatement)
 a controlled substance
                                                                     1 to 5 years                   3 to 5 years
 Violating an out-of-service         90-day minimum
                                                                disqualification in any      disqualification in any
 order                                disqualification
                                                                    10-year period                10-year period
 Violating any of six                                                                        1-year disqualification
                                                               120-day disqualification
 railroad crossing rules                                                                        (if offense within
                                  60-day disqualification      (if offense within 3 years
 (Rule went into effect                                                                           3 years of first
                                                                     of first offense)
 October 4, 1999)                                                                                    offense).
* Reinstatement requires successful completion of an appropriate rehabilitation program that meets the standards set by
  the state-licensing department.
CMV: Commercial Motor Vehicle




                                                              13
                                                                                          Attachment 1
                                                                                           Page 2 of 2
              Violations Requiring More than a Single Conviction Before a
                              Disqualification is Imposed
                                                          Second Offense              Third Offense
             Violation               First Offense        Within a 3-Year            Within 3 Years of
                                                             Period*                  First Offense*
  Excessive speeding                   Recorded         60-day disqualification    120-day disqualification

  Reckless driving                     Recorded         60-day disqualification    120-day disqualification
  Improper     or   erratic   lane
                                       Recorded         60-day disqualification    120-day disqualification
  change
  Following too closely                Recorded         60-day disqualification    120-day disqualification
  Violation in connection with
                                     Recorded           60-day disqualification    120-day disqualification
  a fatal accident
*Multiple offenses may be a combination of different violations.


       Additional Disqualifying Violations Required Under the Motor Carrier
                          Safety Improvement Act of 1999

   •   Driving a commercial vehicle with a revoked, suspended, or canceled CDL or driving while
       disqualified
   •   Conviction for causing a fatality through the negligent or criminal operation of a commercial vehicle
   •   Driving a commercial vehicle without obtaining a CDL
   •   Driving a commercial vehicle without a CDL in possession
   •   Driving a commercial vehicle when the individual has not met the minimum testing standards for the
       specific class of vehicle or type of cargo
   •   Being convicted of a serious offense involving a noncommercial vehicle that resulted in license
       suspension, cancellation, or revocation
   •   Being convicted of a drug or alcohol-related offense involving a noncommercial vehicle




                                                     14
                                                                                       Attachment 2
                                                                                        Page 1 of 2

Crimes Disqualifying an Individual from Obtaining
       a Hazardous Material Endorsement
These crimes are only disqualifying if they are considered felonies in the
appropriate jurisdiction, civilian, or military.6 An applicant is disqualified from
holding a hazardous materials endorsement if he or she was convicted7 or found
not guilty by reason of insanity within the past 7 years, was released from prison
within the past 5 years, or is wanted or under indictment, for any of the following
crimes:

• Assault with intent to murder
• Kidnapping or hostage taking
• Rape or aggravated sexual abuse
• Extortion
• Robbery
• Arson
• Bribery
• Smuggling
• Immigration violations
• Racketeer Influenced and Corruption Organizations Act (RICO) violations
• Distribution of, possession with intent to distribute, or importation of a
  controlled substance (“simple possession” of a controlled substance without an
  intent to distribute is not considered disqualifying)
• Dishonesty, fraud, or misrepresentation, including identity fraud (e.g.,
  felony-level embezzlement, tax evasion, perjury, and false statements to the
  Federal Government)
• Unlawful possession, use, sale, manufacture, purchase, distribution, receipt,
  transfer, shipping, transporting, delivery, import, export of, or dealing in
  firearms or other weapons
• Conspiracy or attempt to commit any of these crimes

An applicant will be permanently disqualified from holding a hazardous
materials endorsement if she or he was ever convicted or found not guilty by
reason of insanity of any of the following crimes:
•      Murder
•      Terrorism
•      Espionage
•      Sedition

6
    49 Code of Federal Regulations §1572.103, “Disqualifying Criminal Offenses.”
7
    “Convicted” means any plea of guilty or nolo contendere or any finding of guilt.


                                                      15
                                                                    Attachment 2
                                                                     Page 2 of 2
• Treason
• Unlawful possession, use, sale, distribution, manufacture, purchase, receipt,
  transfer, shipping, transporting, import, export, storage of, or dealing in an
  explosive or explosive device
• RICO violations (if the crime underlying the RICO conviction is on the list of
  permanently disqualifying crimes)
• A crime involving a transportation security incident (i.e., security incident
  involving a significant loss of life, environmental damage, transportation
  system disruption, or economic disruption in a particular area)
• Improper transportation of a hazardous material (minor infractions involving
  transportation of hazardous materials will not disqualify a driver; for instance,
  no driver will be disqualified for minor roadside infractions or placarding
  violations)
• Conspiracy or attempt to commit any of these crimes




                                        16
                                                                    Attachment 3


    State Licensing Agencies’ Hazardous Materials
       Endorsement Process Before TSA’s Rule
       Requiring a Background Records Check

                                                         Hazardous
                                       Yes               Material
Holder of a                                              Endorsement is
CDL      applies   State licensing                       issued
for a Hazardous    agencies
                                     Does the
Materials          responsible for
                   reviewing the     holder of
Endorsement
                   application and   the CDL
by submitting
                                     pass the
the necessary      administering a
                   test.             test?
paperwork to
the:
                                                         Hazardous
                                                         Material
                                       No                Endorsement is
                                                         not issued


To initiate the process:

• A holder of a CDL would submit an endorsement application to the appropriate
  state licensing agency.

• The state licensing agency was required to verify that the individual had the
  requisite general knowledge and skill tests required for a CDL.

• The applicants were then tested on their knowledge of hazardous materials
  regulations, hazardous materials handling, and operation of emergency
  equipment and emergency response procedures in the event of an accident.

If the applicant passed the test, the state licensing agency would then issue the
hazardous materials endorsement as part of the CDL.




                                       17
                                                                                                                                      Attachment 4

                                      Hazardous Materials Endorsement Process Under
                                     TSA’s Rule Requiring a Background Records Check


                                                       FBI conducts                                     Determination
                                                       fingerprint                                                                 Applicant is eligible
                                                                                                        of No Security             for a Hazardous
                                                       based criminal          TSA completes            Threat9
    Holder of CDL              State licensing         history records                                                             Materials
                                                                               its security
    applying,                  agency or TSA           check and sends                                                             Endorsement
                                                                               threat
    renewing, or               agent8 which:           results to TSA          assessment,
    transferring a             (1) obtains                                     makes its
    Hazardous                  fingerprints and                                determination,
    Materials                  submits them to                                                          Initial                    Applicant is denied
                                                                               and submits to                                      a Hazardous
    Endorsement                FBI and                                                                  Determination
                                                       TSA and other           the state a(n)                                      Materials
    submits                    (2) provides                                                             of Threat
                                                       Federal                                          Assessment10 or            Endorsement
    application to:            TSA with
                                                       agencies                                         a Final
                               biographical
                                                       conduct                                          Determination
                               and
                                                       intelligence-                                    of Threat
                               identification
                                                       based security                                   Assessment if              Applicant can
                               information.
                                                       checks such as                                   the applicants             appeal TSA’s
                                                       checks against                                   appeal is denied           determination11
                                                       terrorist watch
                                                       lists



8
     TSA’s rule requires each state to declare whether it wishes to capture and submit fingerprints, applicant information, and fees itself, or
     alternatively chooses to have TSA complete those tasks.
9
     If the results of the criminal history records check turn up no disqualifying crimes, and other TSA intelligence checks come back clear, TSA
     sends to the state a Determination of No Security Threat, whereupon the state can issue the endorsement after the applicant passes the hazardous
     materials knowledge test.
10
   If the results of the criminal history records check identifies a disqualifying crime or other information disqualifies the applicant TSA sends
   forward to the state an Initial Determination of Threat Assessment notifying the state that the applicant poses or is suspected of posing a security
   threat warranting denial of the hazardous materials endorsement, or a Final Determination of Threat Assessment if the applicant’s appeal is
   denied.
11
   If the applicant chooses to do so, he or she can appeal the TSA’s disposition.

                                                                          18
